                                            UNCLASSIFIED

               MEMORANDUM REPORT 01-IT-M-039
    MORE GUIDANCE AND OVERSIGHT CAN IMPROVE BROADCASTING
            BOARD OF GOVERNORS’ WEB SITE PRIVACY
                          May 2001

       In response to requirements of Section 646 of the Treasury and General
Government Appropriations Act, 2001 (Public Law 106-554), the Office of Inspector
General conducted a review of Internet privacy management at the Broadcasting Board of
Governors. This report focuses on the Broadcasting Board of Governors’ practices
regarding the collection of personally identifiable information through the use of
“cookies”1 and other means on its public web sites.

        Specific objectives of our review were to (1) identify the Broadcasting Board of
Governors’ policies and procedures for managing its Internet web sites in accordance
with Federal guidance, (2) determine whether the Broadcasting Board of Governors’ web
sites use or have entered into third-party agreements concerning the use of cookies, and
(3) determine whether all of the Broadcasting Board of Governors’ major web entry
points have privacy statements posted that adequately reflect what, if any, personal
information is collected on the web sites and how that information is used. In addition,
during the course of our review, we examined the Broadcasting Board of Governors’
structure for managing its web sites and ensuring Internet privacy organizationwide.

RESULTS IN BRIEF

         The Broadcasting Board of Governors has become increasingly reliant on the
World Wide Web to deliver multimedia news and information to international audiences
and to inform the public about its activities and services. The Broadcasting Board of
Governors maintains four public Internet web sites, but has not developed policies to
ensure that the sites are managed in accordance with Federal privacy guidelines
prescribed by the Office of Management and Budget (OMB). Specifically, the guidelines
restrict the use of persistent cookies on Federal Internet sites without compelling need,
agency head approval, and posted notices to advise the public of any information
collected on the sites and how that information is used. Cookies are a typical means of
collecting personal data on Internet sites, often without the site visitors’ awareness.

       In the absence of an agency policy to help ensure web privacy, we found two
instances in which the Broadcasting Board of Governors used persistent cookies on its
web sites without required authorization. Further, one of the four sites that we reviewed
had no privacy statement and therefore no means of advising users of any information

1
 A cookie is a small text file placed on a site visitor’s computer hard drive by a web server. A cookie
allows a server to recognize returning users, track online purchases, or maintain and serve customized web
pages. A cookie also facilitates the collection of personal information, such as extensive lists of previously
visited sites, e-mail addresses, or other information to identify or build profiles on individual site visitors.
collected on the site. We found no evidence that cookies or any other unauthorized
means were used to collect personally identifiable information on the agency’s public
web sites.

        The Broadcasting Board of Governors recognizes that it needs to develop web
privacy policies to help ensure compliance with Federal Internet management guidelines.
Agency officials informed us that they recently began to develop a policy directive to
ensure compliance with Federal guidelines for Internet privacy management within the
International Broadcasting Bureau. The International Broadcasting Bureau is responsible
for governing web management throughout the Broadcasting Board of Governors.

BACKGROUND

        Rapid innovations in technology in recent years offer increasing opportunities for
the Federal Government to improve the quality of information and service that it provides
to U.S. citizens and world audiences. The World Wide Web, also known as the Internet,
has emerged as a powerful tool for communicating large amounts of information on
Federal activities, policies, and programs. At the same time, however, the Internet has
made it possible for web sites to track and collect personally identifiable data2 from site
visitors, making online privacy one of the key and most contentious issues in this
information management age.

         Internet cookies are a principal means by which web sites can collect personal
information from site visitors, often without the visitors’ knowledge or consent. There
are two types of cookies—“session cookies” and “persistent cookies.” Session cookies
are short-lived, used only during a single browsing session, expire when the user quits the
browser, and consequently do not raise privacy concerns. Persistent cookies track
information over time or across web sites. They remain stored on visitors’ computers
until a specified expiration date and can be used to collect information, such as a visitor’s
areas of interest and individual browsing habits. Persistent cookies may raise the public’s
apprehension about what information is collected and how it could be used.

        The full potential of the Internet to help improve Federal services cannot be
realized until U.S. citizens are confident that their online privacy will be safeguarded.
Recognizing this, and building on principles established by the Privacy Act of 1974
(5 USC 552a) and the Paperwork Reduction Act of 1995 (Public Law 104-13), the U.S.
Government has recently taken steps to help ensure the privacy of visitors to Federal web
sites. Specifically, over the past 2 years, OMB issued guidance that establishes the U.S.




2
 Personally identifiable data includes an individual’s name, e-mail address, postal address, telephone
number, Social Security number, or credit card number.



                                                                                                         2
Government policy for the use of cookies on department and agency public web sites.3
Taken together, the OMB guidance directs that Federal web sites and contractors
operating web sites on behalf of Federal agencies should not use persistent cookies on the
web sites unless they provide clear and conspicuous notice of those activities and meet
the following conditions: (1) a compelling need to gather the data on the site, (2)
appropriate and publicly disclosed privacy safeguards for handling information derived
from cookies, and (3) personal approval by the head of the agency. The OMB guidance
further exempts Federal use of session cookies from these requirements.

PURPOSE, SCOPE, AND METHODOLOGY

         Section 646 of the Treasury and General Government Appropriations Act, 2001,
directs all Inspectors General to report on their respective agencies’ practices to collect
any personally identifiable information from their public Internet sites. Such information
could be collected either on an agency’s web sites or through third-party agreements. In
response to the Act, the Office of Inspector General conducted a review with the specific
objectives of (1) identifying the Broadcasting Board of Governors’ policies and
procedures for managing its Internet web sites in accordance with Federal guidance, (2)
determining whether the Broadcasting Board of Governors’ web sites use or have entered
into third-party agreements concerning the use of cookies, and (3) determining whether
all of the Broadcasting Board of Governors’ major web entry points have privacy
statements posted that adequately reflect what, if any, personal information is collected
on the web sites and how that information is used.

        To fulfill our review objectives, we researched procedures used at the
Broadcasting Board of Governors to govern Internet privacy in accordance with Federal
laws and regulations. We met with officials from organizations throughout the
Broadcasting Board of Governors to learn how they manage their public Internet sites
and whether they collect any personal information on the Internet via cookies, third-party
agreements, or other electronic means. We also tested the four Internet sites that we
identified within the Broadcasting Board of Governors to determine if cookies are used
and whether privacy statements are posted to advise of such practices.4 Where necessary,
we followed up with responsible officials to obtain explanations of their web
management practices and plans for corrective actions.

       Appendix A provides details on our methodology for testing the Broadcasting
Board of Governors’ Internet sites. As a part of this approach, we did not examine every
page on a web site, but rather spent a limited time navigating through each site to look for

3
 The OMB guidance includes (1) Memorandum M-99-18, Privacy Policies on Federal Web Sites, June 2,
1999, (2) Memorandum 00-13, Privacy Policies and Data Collection on Federal Web Sites, June 22, 2000,
and (3) a letter from the Administrator, OMB Office of Information and Regulatory Affairs, to the Chief
Information Office, Department of Commerce, September 5, 2000, clarifying the previously issued
guidance.
4
 We did not include issues related to management of the Broadcasting Board of Governors’ internal
Intranet sites in our review.



                                                                                                      3
cookie indicators. We also relied on discussions with web management officials to learn
about third-party agreements or other practices to collect information on public web sites.
To validate our treatment in the report of Internet management practices that the officials
described, we obtained comments on a draft of the report from organizations that
participated in our review. We have incorporated their comments and suggested changes
where appropriate and have included a copy of the comments at Appendix B.

        We conducted our review from January to April 2001 at the Broadcasting Board
of Governors in Washington, DC. We met with officials from the International
Broadcasting Bureau, including the Associate Director for Management and officials
from the Office of Internet Development. We conducted this work in conjunction with a
similar review of Internet privacy management at the Department of State.5 We
performed our work in accordance with generally accepted government auditing
standards. Major contributors to this report were Frank Deffer, Sondra McCauley, and
John Shiffer. Comments or questions about the report can be directed to Mr. Deffer at
defferf@state.gov or at (703) 284-2715.

AUDIT FINDINGS

INTERNET PRIVACY GUIDANCE NEEDS TO BE ESTABLISHED

        At the time of our review, the Broadcasting Board of Governors had not
established agencywide policies for managing its public Internet sites in accordance with
Federal web site privacy guidelines. Without such policies, the Broadcasting Board of
Governors is limited in its ability to ensure that its bureaus and offices, as well as
contractors operating web sites on behalf of the agency, are aware of, and in compliance
with, Federal restrictions on the use of Internet cookies and requirements for posting web
privacy and security notices.

        Although the Broadcasting Board of Governors has no Internet privacy policies in
place, the agency has developed Web Style Guide and Design Specifications for one of its
web sites—www.voanews.com. This style guide outlines the elements that, when
combined, create a user-friendly, distinctive web design. The style guide is to be used
when adding new pages, features, or information to the web site. However, this guide
does not meet Federal requirements for establishing web site privacy management
policies.

        Broadcasting Board of Governors officials agreed with our concerns that guidance
needs to be developed to ensure oversight and compliance with Federal Internet privacy
policies. We provided officials with a sample copy of guidance developed by the
Department of State, which specifically outlines restrictions on cookie use and requires
that privacy statements be posted to Internet sites. Broadcasting Board of Governors
officials informed us in mid-April 2001 that they had taken initial steps toward
developing their own web privacy guidelines.


5
    Departmentwide Web Site Management Needs to be Strengthened, (01-IT-M-017, March 2001)


                                                                                             4
           Recommendation 1: We recommend the Broadcasting Board of Governors
           direct the International Broadcasting Bureau to develop and implement policies
           consistent with Federal web site guidelines prescribed by the Office of
           Management and Budget.

WEB SITES DO NOT COLLECT PERSONALLY IDENTIFIABLE DATA

        The Broadcasting Board of Governors does not use its Internet sites to collect
personally identifiable information on site visitors without their awareness. Our review
identified two unauthorized uses of persistent cookies on the Broadcasting Board of
Governors’ web sites; however, the cookies were not used to gather personal data on site
visitors. The web site managers have been informed and are currently taking steps to
either remove or seek the Broadcasting Board of Governors’ approval for the two
persistent cookies that we discovered during our review. The Broadcasting Board of
Governors has other processes to collect web statistics, trend data, or log files for security
purposes, but these processes also are not used to track individual users over time. Given
recent legislation and ongoing discussions within the Broadcasting Board of Governors
about potentially using the Internet to conduct electronic business, consideration may
have to be given in the future to possibly using cookies or other means to collect personal
information on web site visitors.

Cookies Generally Not Used on Broadcasting Board of Governors Web Sites

        The Broadcasting Board of Governors generally does not use cookies on its public
web sites. We found that of the four sites that we visited and tested, in only two instances
were persistent cookies used.6 We found these persistent cookies on the
www.voanews.com/macedonian and www.ibb.gov/marti web pages. The web managers
of both web pages told us that they did not know that persistent cookies were being used.
The managers are currently taking steps to either remove the persistent cookies that we
discovered during our review or seek the required approval for their continued use.

Persistent Cookies Not Used to Collect Personal Data on Web Visitors

         In both instances where we found use of unauthorized persistent cookies, we
found no evidence that the cookies were used to collect personal data on site visitors.
Specifically, on the www.voanews.com/macedonian web pages that had a cookie, web
managers used a web site development tool, called ColdFusion. This tool automatically
uses persistent cookies, which provide a convenient way to maintain user preferences
(i.e., graphics display, screen color, etc.) as a user navigates from one web page to
another during a site visit. The user’s preferences are automatically removed from
memory when the user’s session ends. The web manager for this site stated that he was
unaware that ColdFusion automatically uses persistent cookies. The Office of Internet
Development is trying to determine whether the persistent cookie we identified can be
changed into a session cookie. If this is not possible, the office will seek approval from
the Broadcasting Board of Governors to continue to use the cookie on the site.
6
    A web site may include hundreds of pages. A cookie could be used on any of the pages.


                                                                                             5
        We notified officials responsible for the www.ibb.gov/marti web page that we had
found a persistent cookie on the web site. We requested an explanation about the cookie
and advised that the organization must either remove the cookie from its web site or seek
agency head approval for its continued use. Web officials were unaware that their third-
party web tracking service used a persistent cookie. The cookie was used to count the
number of hits received on the web site. Web managers notified us on April 11, 2001,
that they had removed the cookie from the site.

Other Methods for Handling Personally Identifiable Data on Broadcasting Board of
Governors Web Sites

        OMB guidelines permit several other ways in which personal data may be
handled on Broadcasting Board of Governors web sites. For example, for audit and
security purposes, the Broadcasting Board of Governors web sites generate log files of
when their sites are visited. The log files do not record information on individual web
users. Rather, they include information such as Internet protocol addresses,7 time frames,
and Internet service providers used to access web sites. For example, when a visitor
connects from America Online to a Broadcasting Board of Governors web site, the web
management system will generate information about the visitor’s web domain (aol.com)
and the date and time of the visit. The logs are amassed in large files that are stored and
secured for 6 months, after which time they are destroyed. In case of computer security
incidents, such as hacker intrusions or denials of service, the logs are turned over to
security officials for investigation. The Broadcasting Board of Governors also uses the
logs to determine web trends, create summary statistics on what information is of most
and least interest, or identify systems performance or problem areas. Commercial
software programs are available to facilitate the ability of systems administrators to view
and analyze the logs.

        There are other ways in which personal data might be handled on Broadcasting
Board of Governors web sites. For example, a visitor to an agency web site might
provide personal information in an e-mail message sent through the site. When this
occurs, the Broadcasting Board of Governors uses any information the visitor provides
only as a means of responding to the message. Further, the Broadcasting Board of
Governors might also collect personally identifiable data through questionnaires,
feedback forms, or other means on its public web sites. In these instances, individuals
voluntarily provide the personal information to the Broadcasting Board of Governors; the
information is not collected on the web site without the individuals’ knowledge. We
found that no unauthorized ways of handling personal information were used—either
directly or through third-party agreements—on the Broadcasting Board of Governors web
sites that we reviewed.


7
  An Internet protocol address is a series of numbers used to identify a computer on the Internet. When
transferring data from one computer to another, both the sending and receiving Internet protocol addresses
are attached to the data packet to allow two-way communications.



                                                                                                         6
Potential Need for Persistent Cookies in the Future

        Although current Federal guidelines restrict cookie use, senior Broadcasting
Board of Governors officials told us that it might be necessary in the future to use cookies
on Internet web sites in order to improve the quality of service to the public. For
example, Section 1704 of the Government Paperwork Elimination Act8 requires that by
2003, executive agencies provide options for the electronic maintenance, submission, or
disclosure of information, when practical, as a substitute for paper. To comply with the
law, agencies may find it necessary to use cookies on their web sites. Currently,
Broadcasting Board of Governors web sites deliver multimedia news and information to
international audiences and inform the public about agency activities. However, in the
future, the agency may wish to allow users to customize their view of agency web sites to
display only specified information. Cookies may be needed to remember the user
preferences.

      Recommendation 2: We recommend that, in accordance with established Federal
      guidelines, the Broadcasting Board of Governors direct all bureaus and offices to
      inspect their web sites to identify any persistent cookies and either remove the
      cookies or request agency head approval for their continued use.

PRIVACY STATEMENTS NOT CONSISTENTLY POSTED
ON AGENCY WEB SITES

        We found that Broadcasting Board of Governors web sites do not always comply
with Federal requirements for posting privacy notices on their Internet sites. The privacy
statements are intended to advise site visitors of what information the agency collects
about individuals, why the agency collects it, and how the agency will use it. The general
practice is to provide a link on the initial home page that provides a central location for
various disclaimers and legal notices to cover the web site as a whole. Additional privacy
notices are also needed wherever information is collected from the public on the web site.

        However, as of early March 2001, one of the four Internet web sites we reviewed
– monitor.ibb.gov – had no privacy statement and therefore no means of advising users of
any information potentially collected on the site. The web manager stated that he was
unaware of the requirement to post a privacy statement and agreed to take corrective
action.

        Since web managers of the two web pages that had persistent cookies were
unaware of the cookies’ existence, managers did not address cookie use in their privacy
statements. Their privacy statements did, however, outline web site policies for
collecting and storing information on visitors to the web sites for statistical purposes. In
addition, any information that is provided by visitors through the web sites in the form of
e-mails, questionnaires, feedback forms, or others means is used to improve customer
service and is not transferred to any third parties. As discussed above, none of the
persistent cookies identified were used to track or collect personal data on individual site

8
    Government Paperwork Elimination Act, 44 USC 3504, October 1998.


                                                                                           7
users. The agency stated in its written response to the draft report that it would update
the web privacy policy on the www.voanews.com site to advise visitors about cookie
usage on the site.

       Recommendation 3: We recommend that the Broadcasting Board of Governors
       direct all agency bureaus and offices to examine their web sites to ensure that
       complete and up-to-date privacy statements are posted, or appropriately linked to
       privacy statements on the primary agency web site, advising site visitors of any
       cookie use or of any personally identifiable data that is collected, stored, or used
       by the web site for any purpose.

AGENCY COMMENTS AND OUR EVALUATION

        The Broadcasting Board of Governors provided written comments on a draft of
this report. A copy of the agency’s comments is included as Appendix B. The
Broadcasting Board of Governors concurred with all of our recommendations and agreed
to take corrective action. Specifically, concerning Recommendation 1, on behalf of the
Broadcasting Board of Governors, the Associate Director for Management of the
International Broadcasting Bureau requested that the Office of Internet Development
draft a proposed agency policy directive consistent with Federal web site guidelines. The
Broadcasting Board of Governors expects to implement these guidelines by August 1,
2001, if not earlier.

         Concerning Recommendation 2, the Broadcasting Board of Governors stated that
it is inspecting its web sites to identify any persistent cookies used. The Office of
Internet Development is studying whether the persistent cookie found on
www.voanews.com/macedonian page can be changed to a session cookie. In addition, an
action memorandum has been drafted for signature by the agency head requesting
approval to restrict use of cookies on the agency’s public web sites to several specific
circumstances. In response to Recommendation 3, the Broadcasting Board of Governors
has agreed to update the privacy policy on the www.voanews.com web site to reflect the
presence of a persistent cookie until the cookie can be removed.




                                                                                              8
                                                                                          APPENDIX A

                              WEB SITE TEST METHODOLOGY


         We reviewed the four Internet web sites that we identified within the
Broadcasting Board of Governors from March 7 through March 30, 2001. Our review
entailed navigating through the web pages within each site--generally spending 8 to 20
minutes per site--to determine whether the site used cookies and posted a privacy
statement advising of this practice and any other automated activities to collect personal
data. To determine cookie use on the web site, we first had to change the security
settings on Microsoft’s Internet Explorer so that the browser would prompt us if web sites
tried to place cookies on our computer. For each web site visited, we printed a copy of
the site’s home page, privacy statement, and any cookie notification9 that appeared. We
also examined the cookie notification to determine whether session or persistent cookies
were used. Figure 1 below provides an example of a persistent cookie notification.

                  Figure 1: Sample Persistent Cookie Notification




                 Because this cookie does not expire
                 until 2037, it is a persistent cookie.


9
  Such cookie notifications do not adequately fulfill OMB requirements to post clear, conspicuous privacy
statements at major web entry points to reflect what, if any, personal information is collected on web sites
and how that information is used.


                                                                                                               9
                                                                                   APPENDIX B

                                  AGENCY COMMENTS10




10
  The draft report title, Broadcasting Board of Governors’ Web Site Management Needs Improvement, was
changed for final publication to More Guidance and Oversight Can Improve Broadcasting Board of
Governors’ Web Site Privacy.


                                                                                                  10
                              APPENDIX B

AGENCY COMMENTS (continued)




                                      11
APPENDIX B

             AGENCY COMMENTS (continued)




                                           12
